No.

18-2172

IN THE
SUPREME COURT OF THE UNITED STATES

ANNETTE SHANDS - PETITIONER
VS.
LAKELAND CENTRAL SCHOOL DISTRICT, DR.TAMMY COSGROVE,
ASSISTANT SUPERINTENDENT OF HUMAN RESOURCES - RESPONDENTS
PROOF OF SERVICE
I, Annette Shands do swear or declare that on this date
December

$

., 2019, as required by Supreme Court Rule 29,

I have served the enclosed PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above document in
the United States mail properly addressed and with first-class postage, prepaid, or
by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Attorney James A. Randazzo.
245 Main Street. Suite 340.
(914)-292-3557.

White Plains. New York 10601

I declare under penalty of perjury that the foregoing is true and correct.
Executed on December

, 2019

